Scott S. Harris
January 25, 2021
Page 2

HERBERT H. SLATERY III
ATTORNEY GENERAL AND REPORTER
P.O. BOX 20207, NASHVILLE, TN 37202
TELEPHONE (615)741-3491
FACSIMILE (615)741-2009

January 25, 2021

Via E-Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Gregory Atkins, et al. v. Kenneth Williams, No. 20-941

Dear Mr. Harris,
Pursuant to Supreme Court Rule 30.4, Respondent Kenneth Williams,
in his official capacity as Medical Director of the Tennessee Department of
Correction, respectfully requests an extension of 28 days, to and including
March 12, 2021, of the time period within which to file his response to the
petition for a writ of certiorari in Atkins v. Williams, No. 20-941. The petition
was docketed on January 13, 2021. The response is currently due on February
12, 2021. Petitioner does not oppose this request.
This is Respondent’s first request for an extension of time. The extension
is needed because Respondent’s counsel of record, Sarah K. Campbell, has
significant briefing obligations near the current deadline, including the State’s
opening brief in Bristol Regional Women’s Center, P.C. v. Slatery, No. 20-6267
(6th Cir.) (due February 9, 2021). Moreover, counsel was not involved in the

Scott S. Harris
January 25, 2021
Page 2
proceedings below and needs additional time to review the record and fully
research the relevant legal issues.
Respectfully submitted,
/s/ Sarah K. Campbell
SARAH K. CAMPBELL
Counsel of Record
Associate Solicitor General
P.O. Box 20207
Nashville, TN 37202-0207
(615) 532-6026
sarah.campbell@ag.tn.gov
cc: Michael J. Wall (Counsel for Petitioners)

CERTIFICATE OF SERVICE
I, Sarah K. Campbell, a member of the Supreme Court Bar, hereby
certify that on January 25, 2021, a copy of the attached letter requesting an
extension of time within which to file a brief in opposition was served
electronically on the following counsel:
Mr. Michael J. Wall
Branstetter, Stranch & Jennings, PLLC
223 Rosa L. Parks Avenue, Suite 200
Nashville, Tennessee 37203
(615) 254-8801
michaelw@bsjfirm.com
/s/ Sarah K. Campbell
SARAH K. CAMPBELL
Associate Solicitor General
P.O. Box 20207
Nashville, TN 37202
(615) 532-6026
sarah.campbell@ag.tn.gov

